0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 20-289,
Retirement Plans Committee of IBM, et al. v. Larry W.
Jander, et al., was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via e-mail
service to the following parties listed below, this 20th
day of October, 2020:
Samuel Ethan Bonderoff
Zamansky, LLC
50 Broadway, 32nd Floor
New York, NY 10004
(212) 742-1414
samuel@zamansky.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Paul D. Clement
Counsel of Record
George W. Hicks, Jr.
C. Harker Rhodes IV
Andrew C. Lawrence
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Lawrence Portnoy
Michael S. Flynn
David B. Toscano
Zachary A. Kaufman
DAVIS POLK & WARDWELL LLP
450 Lexington Ave.
New York, NY 10017
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 20, 2020.

Donna J. Wolf
Becker Gallagher Lega; : ~Iring Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
!'.°l'hrp ~.·v

14, 2023

